UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
JUL 23 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

ANGEL OSORNIO,
Plaintiff-Appellant,
v.
GOVERNMENT EMPLOYEES
INSURANCE COMPANY,

No.

20-15924

D.C. No. 2:20-cv-00505-DMF
District of Arizona,
Phoenix
ORDER

Defendant-Appellee.
Before; THOMAS, Chief Judge, SCHROEDER and CALLAHAN, Circuit Judges.
This court has reviewed the notices of appeal filed April 20, 2020 and May
11,2020 in the above-referenced district court docket pursuant to the pre-filing
review order entered in docket No. 19-80039. Because this court lacks jurisdiction
over this appeal, it shall not be permitted to proceed. See 28 U.S.C. § 1291; In re
San Vicente Med, Partners Ltd., 865 F,2d 1128, 1131 (9th Cir. 1989) (order)
(magistrate judge order not final or appealable); Serine v. Peterson, 989 F.2d 371 5
372-73 (9th Cir. 1993) (magistrate judged findings and recommendations not
appealable; premature appeal not cured by subsequent entry of final judgment by
district court); see also In re nomas, 508 F.3d 1225 (9th Cir. 2007). Appeal No.
20-15924 is therefore dismissed.

MF/Pro Se

"

This order, served on the district court for the District of Arizona, shall
constitute the mandate of this court.
No motions for reconsideration, rehearing, clarification, stay of the mandate,
or any other submissions shall be filed or entertained.
DISMISSED.

MF/Pro Se

2

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
JUL 24 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

ANGEL OSORNIO,
PI ainti ff-Appel 1 ant,
v.

No.

20-15801

D.C. No.
3:20-cv-08054-J JT-MHB
District of Arizona,
Prescott

STATE OF ARIZONA,
ORDER
Defendant-Appel 1 ee.
Before: THOMAS, Chief Judge, SCHROEDER and CALLAHAN, Circuit Judges.
This court has reviewed the notice of appeal filed April 20, 2020 in the
above-referenced district court docket pursuant to the pre-filing review order
entered in docket No. 19-80039. Because the appeal is so insubstantial as to not
warrant further review, it shall not be permitted to proceed. See In re Thomas, 508
F.3d 1225 (9th Cir. 2007). Appeal No. 20-15801 is therefore dismissed.
This order, served on the district court for the District of Arizona, shall
constitute the mandate of this court.
No motions for reconsideration, rehearing, clarification, stay of the mandate.
or any other submissions shall be filed or entertained
DISMISSED.

RECEIVED
AUG - 5 2020
I^MECOI IHTLn^

MF/Pro Se

UNITED STATES COURT OF APPEALS

FILED
JUL 24 2020

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

ANGEL OSORNIO,
Plaintiff-Appellant,
v.

MOUNTAIN HEART,

No.

20-15817

D.C. No. 3:20-cv-08024-DJH
District of Arizona,
Prescott
ORDER

Defendant-Appel lee.
Before: THOMAS, Chief Judge, SCHROEDER and CALLAHAN, Circuit Judges.
This court has reviewed the notice of appeal filed April 20, 2020 in the
above-referenced district court docket pursuant to the pre-filing review order
entered in docket No. 19-80039. Because the appeal is so insubstantial as to not
warrant further review, it shall not be permitted to proceed. See In re Thomas, 508
F.3d 1225 (9th Cir. 2007). Appeal No. 20-15817 is therefore dismissed.
This order, served on the district court for the District of Arizona, shall
constitute the mandate of this court.
No motions for reconsideration, rehearing, clari fication, stay of the mandate,
or any other submissions shall be filed or entertained.
DISMISSED.

MF/Pro Se

RECEIVED
MG -5 wq

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

JUL 23 2020
MOLLY C. DWYER, CLERK
■ U.S. COURT OF APPEALS

ANGEL OSORNIO,

No.

Pl ainti ff-Appel I ant,

20-15924

D C. No. 2:20-cv-00505-DMF
District of Arizona,
Phoenix

v.
GOVERNMENT EMPLOYEES
INSURANCE COMPANY,

ORDER

Defendant-Appel lee.
Before: THOMAS, Chief Jud

ge, SCHROEDER and CALLAHAN, Circuit Judges.

This court has reviewed the notices of appeal filed April 20
11, 2020 m the above-referenced district court docket

: pursuant to the pre-filing

review order entered in docket No. 19-80039. Because this
over this appeal, it shall not be permitted to proceed
Scm Vicente Med. Partners Ltd., 865 F.2d ] 128,
(magistrate judge order not final
j72-7j

, 2020 and May

court lacks jurisdiction

• See 28 U.S.C. § 1291; In re

1131 (9th Cir. 1989) (older)

or appealable); Serine v. Peterson, 989 F.2d 371.

(9th Cir. 1993) (magistrate judge's

findings and recommendations not

appealable; premature appeal not cured by subsequent entry of final judgment by
district court); .see also In re Thomas
20-15924 is therefore dismissed.

MF/Pro Se

508 F.3d 1225 (9th Cir. 2007). Appeal No.

